Lawrence S. Robbins

202.775.4501
lrobbins@robbinsrussell.com

July 6, 2020

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Deutsche Bank Trust Company Americas, et al., v. Robert R. McCormick
Foundation, et al.

Dear Mr. Harris:
As attorney for the petitioners in the above-captioned case, I hereby notify you pursuant
to Supreme Court Rule 12.6 that it is my belief that the parties listed in the appendix to this
letter, who were parties to this proceeding in the United States Court of Appeals for the Second
Circuit, have no interest in the outcome of the petition for certiorari filed by these petitioners to
the Supreme Court of the United States.

Respectfully submitted,
/s/ Lawrence S. Robbins
Lawrence S. Robbins
Counsel for Petitioners

Appendix
Advanced Series Large Cap, T. Rowe Price Retirement Plan Services, Inc.
Aegon/Transamerica Series Trust T. Rowe Price Equity Income
AIM Counselor Series Trust (Invesco Counselor Series Trust)
AIM Variable Insurance Funds (Invesco Variable Insurance Funds)
AQR Capital Management LLC
AQR R. C. Equity Australia Fund
AST T. Rowe Price Asset Allocation Portfolio
Bank of America, National Association as Directed Trustee of Bank of America Pension-T. Rowe
Price
Bank of New York Mellon Corporation
BlackRock
BlackRock Institutional Trust
BlackRock Institutional Trust Company, N.A. (Equity Index Fund)
BlackRock Institutional Trust Company, N.A. (Equity Index Fund B)
BlackRock Institutional Trust Company, N.A. (Equity Index Plus Fund A)
BlackRock Institutional Trust Company, N.A. (Equity Value Fund)
BlackRock Institutional Trust Company, N.A. (Russell 1000 Alpha Tilts Fund BL)
BlackRock Institutional Trust Company, N.A. (Russell 1000 Index Fund)
BlackRock Institutional Trust Company, N.A. (Russell 1000 Value Fund B)
BlackRock Institutional Trust Company, N.A. (Russell 1000 Value Fund)
BlackRock Institutional Trust Company, N.A. (Russell 2500 Index Fund)
BlackRock Institutional Trust Company, N.A. (Russell 3000 Index Fund)
BlackRock Institutional Trust Company, N.A. (S&P 500 Index V.I. Fund)
BlackRock Institutional Trust Company, N.A. (US Equity Market Fund A)
BlackRock Institutional Trust Company, N.A. (US Equity Market Fund B)
BlackRock Institutional Trust Company, N.A. f/k/a Barclays Global Investors N.A.
2

BlackRock Institutional Trust Company, National Association f/k/a Barclays Global Investors,
N.A.
BlackRock Variable Series Funds, Inc.
Boston Partners Asset Management
Charles Schwab & Co., Inc.
Charles Schwab Investment Management, Inc.
Cheetah & Co.
College Retirement Equities Fund
Deutsche Asset Management, Inc. (Scudder)
Deutsche Bank Secs Inc.
Deutsche Bank Securities Inc.
Deutsche Bank Securities Inc., in Its Individual and Custodial Capacities
DFA Investment Dimensions Group, Inc.
DFA U.S. Core Equity Fund of Dimensional Funds
DFA U.S. Vector Equity Fund of Dimensional Funds
Dimensional Investment Group, Inc.
Dreyfus Active Midcap Fund
Dreyfus Basic S&P 500 Stock Index Fund
Dreyfus Index Funds, Inc.
Dreyfus S&P 500 Stock Index Fund
Dreyfus Stock Index Funds, Inc.
Dreyfus/Laurel Funds Inc.
DWS Equity 500 Index Portfolio
DWS Investments VIT Funds, as Issuer of a Series Known as DWS Equity 500 Index VIP
Eaton Vance Management
Eaton Vance Management, Inc.
Eaton Vance Multi Cap Growth Portfolio
3

Eaton Vance Tax Managed Global Buy Write Opportunities Fund
Eaton Vance Tax Managed Growth Portfolio
Eaton Vance Tax Managed Multi-Cap Growth Portfolio
Federated Capital Appreciation Fund II (f/k/a Federated Clover Value Fund II)
Federated Capital Income Fund, Inc.
Federated Clover Value Fund (f/k/a Federated American Leaders Fund)
Federated Equity Funds
Federated Equity Income Fund, Inc.
Federated Income Securities Trust
Federated Index Trust
Federated Insurance Series
Federated Investment Counseling
Federated Investment Management Company
Federated Investors
Federated Investors Corporation
Federated Investors, Inc.
Federated Managed Volatility Fund II (f/k/a Federated Capital Income Fund II f/k/a Federated
Equity Income Fund II)
Federated Managed Volatility Fund II (f/k/a Federated Capital Income Fund II)
Federated Max-Cap Index Fund
Federated MDT Stock Trust
Federated Muni and Stock Advantage Fund
FGTFEBP for the Fidelity US Equity Index Commingled Pool
Fidelity Advisor Series I
Fidelity Commonwealth Trust
Fidelity Concord Street Trust
Fidelity Securities Fund-Leveraged Company Stock Fund
4

Fidelity US Equity Index Commingled Pool
Fortis Clearing Americas LLC 695
Foulard & Co.
Goldman Sachs Variable Insurance Trust
ING Investors Trust
Invesco Asset Mgmt (Japan) Ltd.
Invesco Perpetual
Invesco SPG Index Trust
iShares Trust (iShares Dow Jones U.S. Consumer Services Sector Index Fund)
iShares Trust (iShares Dow Jones U.S. Index Fund f/k/a iShares Dow Jones U.S. Total Market
Index Fund)
iShares Trust (iShares Morningstar Mid Value Index Fund)
iShares Trust (iShares Russell 1000 Index Fund)
iShares Trust (iShares Russell 1000 Value Index Fund)
iShares Trust (iShares Russell 3000 Index Fund)
iShares Trust (iShares Russell 3000 Value Index Fund)
iShares Trust (iShares Russell Midcap Index Fund)
iShares Trust (iShares Russell Midcap Value Index Fund)
iShares Trust (iShares S&P 500 Index Fund)
iShares Trust (iShares S&P 500 Value Index Fund)
J.P. Morgan
J.P. Morgan Securities LLC f/k/a J.P. Morgan Securities Inc.
J.P. Morgan Securities Ltd.
J.P. Morgan Securities, LLC f/k/a J.P. Morgan Securities Inc.
J.P. Morgan Services, Inc.
John Doe as Owner of Federated Investment Counseling
John Doe as Owner of State Street Global Advisors, Inc. -- S&P 500 Equal Weight CTF
5

John Doe, as Trustee for T. Rowe Price Equity Income Trust
John Doe, as Trustee of Invesco SPG Index Trust
John Doe, as Trustee of the Federated MDT Stock Trust
John Doe, as Trustee of the T. Rowe Price Structured Research Common Trust Fund
JPMorgan Chase Bank National Association
JPMorgan Chase Bank, National Association
MainStay VP Funds Trust (f/k/a MainStay VP Series Fund, Inc.), as issuer of a series known as
MainStay VP Common Stock Portfolio
MainStay VP Funds Trust (f/k/a MainStay VP Series Fund, Inc.), as issuer of a series known as
MainStay VP Mid Cap Core Portfolio
MainStay VP Funds Trust (f/k/a MainStay VP Series Fund, Inc.), as issuer of a series known as
MainStay VP S&P 500 Index Portfolio
Maxim T. Rowe Price Equity/Income Portfolio
Mellon Capital Management Corporation
Metropolitan Stock Index Fund
MML Equity Income Fund
MML Equity Income Fund, T. Rowe Price Retirement Plan Services, Inc.
Morgan Stanley Select Dimensions Investment Series
Pacific Select
Pacific Select Fund
Principal Variable Contracts Funds Inc.
Putnam Fiduciary Trust Company, as Trustee of the Putnam S&P 500 Index Fund
Putnam S&P 500 Index Fund
Robert W Baird Co. Inc.
Schwab 1000 Index Fund
Schwab Capital Trust
Schwab Fundamental US Large Company Index Fund

6

Schwab Investments
Schwab S&P 500 Index Fund (f/k/a Schwab Institutional Select S&P 500 Fund)
Schwab Total Stock Market Index Fund
Sherbet & Co.
Spinningrod & Co.
State Street Global Advisors
State Street Global Advisors (Japan) Co., Ltd.
State Street Global Advisors Fund
State Street Global Advisors World Fund
State Street Global Advisors, Inc.
State Street Global Advisors, Inc. Boston
Steve H. Kagan
T. Rowe Price Associates
T. Rowe Price Associates (Spinningrod & Co.)
T. Rowe Price Associates Inc. (Cheetah & Co.)
T. Rowe Price Associates Inc. (Sherbet & Co.)
T. Rowe Price Associates, Inc.
T. Rowe Price Associates, Inc. (Foulard & Co.)
T. Rowe Price Associates, Inc. (Taskforce & Co.)
T. Rowe Price Balanced Fund - Large Cap Core Fund, Inc.
T. Rowe Price Balanced Fund, Inc.
T. Rowe Price Equity Income Fund a/k/a T. Rowe Price Equity Income Trust
T. Rowe Price Equity Income Trust c/o T. Rowe Price Associates, Inc.
T. Rowe Price Equity Index 500 Fund
T. Rowe Price Equity Index Trust
T. Rowe Price Equity Series, Inc.
7

T. Rowe Price Group Inc.
T. Rowe Price Index Trust, Inc.
T. Rowe Price Institutional Com Trust Fund Equity Index Trust
T. Rowe Price Mid-Cap Value Fund, Inc.
T. Rowe Price Retirement Plan Services, Inc.
T. Rowe Price Structured Research Common Trust Fund
T. Rowe Price Total Equity Market Index Fund
T. Rowe Price Trust Company
T. Rowe Price, as Owner of Advanced Series Large Cap
T. Rowe Price, as Owner of MML Equity Income Fund
Taskforce & Co.
Tax-Managed U.S. Equity Series of the DFA Investment Trust Company
Tax-Managed U.S. Marketwide Value Series of the DFA Investment Trust Company
Teachers Insurance Annuity Association of America
The Bank of New York Mellon Corporation
The Bank of New York Mellon as trustee of SPDR S&P MidCap 400 ETF Trust a/k/a SPDR
MidCap 400 Trust
The DFA Group Trust
The DFA Investment Trust Company
The Dreyfus/Laurel Funds Inc.
The MainStay Funds Trust, as issuer of a series known as MainStay S&P 500 Index Fund
The MainStay Funds, as issuer of a series known as MainStay Common Stock Fund
The MainStay Funds, as issuer of a series known as MainStay Equity Index Fund
The Thomas Decedent’s Trust U/D/T 6/12/1981
The Vanguard Group, Inc.
TIAA Board of Overseers, as Trustee
TIAA-CREF Funds
8

TIAA-CREF Institutional Mutual Funds
TIAA-CREF Investment Management, LLC
TIAA-CREF Life Funds
Transamerica BlackRock Large Cap Value VP (f/k/a Transamerica T. Rowe Price Equity Income
VP)
Transamerica Series Trust (f/k/a Aegon/Transamerica Series Trust)
U.S. Core Equity 1 Portfolio of DFA Investment Dimensions Group, Inc.
U.S. Core Equity 2 Portfolio of DFA Investment Dimensions Group, Inc.
U.S. Large Cap Value Series of The DFA Investment Trust Company
U.S. Large Company Portfolio of Dimensional Investment Group, Inc. (f/k/a U.S. Large Company
Series of the DFA Investment Trust Company)
U.S. Vector Equity Portfolio of DFA Investment Dimensions Group, Inc.
USAA Federal Savings Bank, in its Custodial Capacity
USAA Investment Management Company
USAA Mutual Funds Trust
VA U.S. Large Value Portfolio of DFA Investment Dimensions Group, Inc.
Vanguard Asset Allocation Fund
Vanguard Balanced Index Fund (a/k/a Vanguard Balanced Index Equity Fund)
Vanguard Consumer Discretionary Index Fund
Vanguard Equity Income Fund
Vanguard Fenway Funds
Vanguard Fiduciary Trust Company, as Trustee of its sponsored and managed collective
investment funds
Vanguard Fiduciary Trust Company, custodian, Steve H. Kagan IRA Rollover Account
Vanguard Fiduciary Trust Company, Russell 1000 Value
Vanguard FTSE Social Index Fund
Vanguard Growth & Income Fund

9

Vanguard High Dividend Yield Index Fund
Vanguard Index 500 Fund
Vanguard Index Funds
Vanguard Institutional Index Fund
Vanguard Institutional Index Funds
Vanguard Institutional Total Stock Market Index Fund
Vanguard Large Cap Index Fund
Vanguard Malvern Funds
Vanguard Mid-Cap Index Fund
Vanguard Mid-Cap Value Index Fund
Vanguard Quantitative Funds
Vanguard Scottsdale Funds
Vanguard Structured Large-Cap Equity Fund
Vanguard Tax Managed Growth & Income Fund
Vanguard Tax-Managed Fund
Vanguard Tax-Managed Funds
Vanguard Total Stock Market Index Fund
Vanguard Valley Forge Funds
Vanguard Value Index Fund
Vanguard Variable Insurance Fund
Vanguard Variable Insurance Funds
Vanguard VVIF Equity Fund Index
Vanguard VVIF Equity Income VGI
Vanguard VVIF Midcap Index Fund
Vanguard Whitehall Funds
Vanguard Windsor Funds
10

Vanguard Windsor II Fund
Vanguard World Fund (f/k/a Vanguard World Funds)
VFTC - Vanguard Company Stock Account 21
Wells Fargo Bank, N.A.
Wells Fargo Investment, LLC
William F. Thomas Jr., as Trustee of the Thomas Decedent’s Trust U/D/T 6/12/1981

11

